BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 21-341
WILLIAMJ. COST AND WILI.JAMJ. COST, JR.,

Petitioners,
V.

BOROUGH OF DICKSON CITY, MICHAEL RANAKOSKI
AND MICHAEL MCMORROW,

Respondents.
As required by Supreme Court Rule 33.l(h), I
certify that the Respondents' Brief in Opposition to
Petition for Writ of Certiorari contains 3,148 words,
excluding the parts of the Brief that are exempted by
Supreme Court Rule 33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on September 30, 2021.

~Ce,n~R

Heather Campbell
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

